Audit Report




OIG-08-034

TERRORIST FINANCING/MONEY LAUNDERING: OTS
Examinations of Thrifts for Bank Secrecy Act and Patriot Act
Compliance Were Often Limited

May 15, 2008




Office of
Inspector General
Department of the Treasury
Contents

Audit Report................................................................................................... 1

    Results in Brief...............................................................................................2

    Background ...................................................................................................7

    Findings ....................................................................................................12

        OTS Examiners Often Performed Limited Examinations to Evaluate
        BSA and Patriot Act Compliance................................................................12

        OTS Examiners Did Not Consistently Cite a Violation When Written BSA
        Program Elements Were Missing ................................................................31

    Recommendations ........................................................................................36

Appendices

    Appendix     1:      Objective, Scope, and Methodology .........................................39
    Appendix     2:      Management Response ..........................................................42
    Appendix     3       Major Contributors to This Report ............................................47
    Appendix     4:      Report Distribution.................................................................48

Abbreviations

    AML         anti-money laundering
    BSA         Bank Secrecy Act
    CDD         Customer Due Diligence
    CIP         Customer Identification Program
    CTR         Currency Transaction Report
    ECEF        Electronic Continuing Examination Folder
    FFIEC       Federal Financial Institutions Examination Council
    FinCEN      Financial Crimes Enforcement Network
    MSB         money services business
    OTS         Office of Thrift Supervision
    ROE         Report of Examination
    SAR         Suspicious Activity Report




                         TERRORIST FINANCING/ MONEY LAUNDERING: OTS Examinations of Thrifts for              Page i
                         Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
           This page intentionally left blank.




TERRORIST FINANCING/ MONEY LAUNDERING: OTS Examinations of Thrifts for        Page ii
Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
                                                                                      Audit
OIG
The Department of the Treasury
                                                                                      Report
Office of Inspector General


                     May 15, 2008

                     John M. Reich
                     Director
                     Office of Thrift Supervision

                     As regulator of the thrift industry, the Office of Thrift Supervision
                     (OTS) charters federal savings and loan associations, adopts
                     regulations governing the operation of the thrift industry, conducts
                     examinations of federal and state-chartered savings institutions and
                     their holding companies, and supervises compliance with federal
                     laws and regulations and OTS directives. In fiscal year 2006, OTS
                     supervised 853 savings associations, with assets totaling $1.6
                     trillion, and 481 holding companies, with assets totaling
                     approximately $7.7 trillion.

                     OTS examines thrifts for safety and soundness and for compliance
                     with consumer laws. OTS also examines thrifts for compliance
                     with the Bank Secrecy Act (BSA)1 and title III of the USA PATRIOT
                     Act (Patriot Act).2 (Hereafter we refer to these examinations jointly
                     as BSA examinations.) OTS combines safety and soundness and
                     compliance examinations and produces one report of examination
                     (ROE) that contains the results. OTS reported that it conducted
                     1,272 BSA examinations and cited over 262 thrifts for violations
                     from January 2005 through September 2006. Most violations were
                     remedied during the examination process, though 40 enforcement
                     actions were initiated.

                     The objective of our audit was to determine whether OTS’s
                     examination coverage was sufficient to determine thrift compliance
                     with BSA and the Patriot Act. We also reviewed how OTS reported
                     the results of its examinations to ensure that thrifts took
                     appropriate corrective actions for noncompliance with BSA. Using
                     OTS’s guidance for conducting and reporting BSA examinations,

1
  Pub. L. No. 91-508 (codified, as amended, at 12 U.S.C. § 1829b; 12 U.S.C. §§ 1951-1959; 31
U.S.C. § 5311 et seq.).
2
  Pub. L. No. 107-56. The acronym USA PATRIOT stands for “Uniting and Strengthening America by
Providing Appropriate Tools Required to Intercept and Obstruct Terrorists.”

                     TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for         Page 1
                     Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
                       we reviewed the most current examinations conducted by OTS’s
                       four regions for a sample of 95 thrifts.3 Upon selecting current
                       examinations for review that covered the period of calendar years
                       2004 through 2006, we requested and reviewed the examinations
                       performed just prior to these examinations, usually 12 to 18
                       months earlier, to compare the scope of both examinations and
                       determine whether problems previously identified in the BSA
                       program had been corrected. We also interviewed the examiners
                       for the sampled thrifts to discuss our observations relative to the
                       reviewed examinations. We conducted our fieldwork from January
                       2006 through July 2007. Appendix 1 contains a more detailed
                       description of audit objectives, scope, and methodology.


Results in Brief
                       We found that OTS examiners often performed limited
                       examinations of thrifts to evaluate BSA and Patriot Act compliance.
                       For 82 of the 95 thrifts, we found in the most recent examinations
                       we reviewed that examiners did not evaluate whether significant
                       compliance program elements had been implemented by thrifts.
                       The examiners frequently accepted that the thrift programs were
                       up to standard because the thrifts had policies and procedures in
                       place for certain BSA and Patriot Act program areas, without
                       determining the manner in which these policies and procedures
                       were implemented. In other cases, examiners did not fully
                       understand the new provisions which were added to the BSA with
                       the enactment of the Patriot Act. This resulted in limited reviews,
                       or no additional testing in situations that posed a potential risk to
                       the thrift. Areas in which examinations were limited included
                       314(a) information sharing,4 customer identification programs

3
  Our original sample was to have included 100 thrifts - 40 in the Northeast, 20 in each of the Midwest
and Southeast regions, and 20 in the West. In the Northeast, we reported our results for only 37 thrifts,
because 3 thrifts had examinations that were conducted by the state of Ohio under an alternating
examination agreement with OTS. In the West, we reported our results for only 18 thrifts because 1
thrift’s most current examination was a limited review conducted to assess the thrift’s compliance with
provisions of an enforcement order and for 1 thrift, our random sample yielded 2 examinations for the
same institution.
4
  Section 314(a) of the Patriot Act, with implementing regulations published in 31 CFR Part 103.100,
provides for a sharing of information between a financial institution and a federal law enforcement
agency investigating terrorist activity or money laundering. FinCEN presents the request for information
to the financial institution which is required to expeditiously search its records to determine whether it
maintains or has maintained any account related to the subject of the request.

                       TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for         Page 2
                       Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
                       (CIP),5 customer due diligence (CDD) activities, 6 and separation of
                       duties of thrift officials who perform independent testing or day-to-
                       day BSA functions and are also responsible for the administration,
                       oversight, direction and monitoring of the thrift’s compliance
                       program. By not evaluating whether program elements were
                       implemented, we believe examiners could draw incorrect
                       conclusions about the effectiveness of thrift programs.

                       For each thrift in our sample, we also found that at least one or
                       more BSA compliance examination areas lacked evidence of review
                       or the examiner’s assessment of work that was warranted in the
                       particular BSA compliance area. OTS guidance requires examiners
                       to document in their workpapers the judgments made during
                       examinations and the basis for selecting areas subject to review.7
                       We found that the review of a thrift’s electronic banking activities,
                       specifically Internet banking, most often lacked evidence of
                       examiner review. Also, although OTS’s information technology
                       group examines the authentication processes8 at thrifts, the
                       information technology group does not routinely share the results
                       of the examinations with compliance examiners. Problems with
                       authentication processes may affect the adequacy of BSA controls.

                       In addition, we found that OTS’s regions were inconsistent when
                       reporting findings regarding outdated or incomplete written BSA


5
  Section 326 of the Patriot Act of 2001, with implementing regulations published in 31 CFR 103.121,
requires institutions to implement a CIP when accounts are opened. The CIP requires that reasonable
procedures be established by institutions for verifying the identity of any person seeking to open an
account and for maintaining records of the information used to verify the person’s identity. Procedures
should also include a determination of whether the person appears on any lists of known or suspected
terrorists or terrorist organizations issued by any federal government agency.
6
  Section 312 of the Patriot Act, added a new subsection (i) to 31 USC 5318 of the BSA with
implementing regulation published at 31 CFR 103.181 at July 23, 2002 through January 4, 2006
followed by 31 CFR 103.176 and 31 CFR 103.178. These regulations require an institution to maintain
a due diligence program with policies, procedures, and controls that are reasonably designed to detect
and report any known or suspected money laundering or suspicious activity conducted or involving
certain accounts managed by the institution as part of its anti money laundering program.
7
  OTS’s examination handbook also states that conclusions made about the effectiveness of the OTS
examination process are in part determined by the adequacy of workpaper documentation. The
documentation of procedures and subsequent conclusions in the examination program leaves an
effective audit trail for users of the completed programs.
8
  Authentication processes are used to validate the identity of the thift’s account holders who are
accessing Internet-based financial services.

                       TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for         Page 3
                       Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
                         programs, in some cases representing the findings as
                         recommendations for enhancement and in other cases as BSA
                         violations. OTS guidance states that required elements that are
                         missing from written BSA programs should be considered violations
                         and entered as such into OTS examination system records and
                         ROEs. We also observed that OTS’s Midwest and Southeast
                         regions used a standard form that identified violations cited in the
                         examinations to ensure they were properly reported, which made it
                         easier to trace examination findings from the workpapers to the
                         ROE and OTS’s Electronic Continuing Examination Folder (ECEF). 9

                         We are recommending that the Director of OTS (1) reinforce the
                         need for examiners to adhere to existing BSA examination related
                         guidance, and assess if it is necessary to provide supplemental
                         guidance and training to ensure examination consistency and
                         documentation of examinations; (2) for thrifts that offer electronic
                         banking services, have compliance examiners consult with
                         examiners performing information technology examinations to
                         determine if there are additional BSA-related risks; and (3) provide
                         guidance to examiners to ensure they consistently cite thrifts for
                         violations when their written BSA programs are missing required
                         elements.

                         OTS Response and OIG Comments

                         In a written response to this report, which is included as
                         appendix 2, OTS’s Deputy Director, Examinations, Supervision and
                         Consumer Protection, stated that in general OTS concurred with
                         our three recommendations and has mechanisms in place to
                         address them. In this regard, OTS provides on-going BSA training
                         to examiners through internal and external conferences, meetings,
                         and examiner schools, and will reinforce the need for examiners to
                         adhere to existing BSA examination guidance and assess whether
                         supplemental guidance is necessary. OTS will implement a process
                         to ensure that compliance examiners consult with information
                         technology examiners to determine if there are BSA-related risks at
                         particular institutions. Furthermore, OTS is also currently working
                         with the other federal banking agencies to issue interagency
                         guidance on BSA violations which is intended to ensure additional


9
    ECEF is an Intranet-based OTS system for storing and relating documents related to a particular thrift.

                         TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for         Page 4
                         Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
consistency among the federal banking agencies when citing
violations. Additionally, OTS is enhancing an existing program
through which BSA violations are discussed among managers to
ensure consistent supervisory responses. The steps OTS has taken
or planned meet the intent of our recommendations.

The Deputy Director, however, took exception to our
characterization of BSA examinations as limited. He said the
examinations are risk-focused and that the scope of the BSA
examination is tailored at each savings association by considering
an association’s demonstrated ability to manage BSA compliance
responsibilities, the association’s track record, and any changes
that have occurred since the prior examination. Examiners are
instructed to, at a minimum, use the core examination minimum
procedures to ensure that the institution has an adequate BSA
compliance program. He stated that OTS examiners are instructed
to include work paper information that is relevant to support critical
or adverse examination findings in the ROE. Examiners only include
documentation consistent with the risks associated with the
reviewed areas and are instructed to complete and file only those
documents where work was performed in areas applicable to the
examination. The Deputy Director said that examiners do not
document areas that are not applicable to the examination
program, because documenting why certain examination areas do
not apply to an association would significantly increase
examination time and burden on the industry.

We agree that examiners should not create unnecessary work
paper documentation. However, OTS’s own guidance states that
examiners should document in their work papers the judgments
they make during examinations and the basis for selecting areas to
review. The guidance also states that the effectiveness of OTS’s
examination process is in part reflected in the adequacy of work
paper documentation. Moreover, we looked for evidence that
examiners assessed risk when conducting their examinations,
either in the work paper documentation or in a formal risk
assessment prepared by either the thrift or the examiner, and often
found no evidence that risk was assessed.

In addition, the Deputy Director commented on the significant
expansion of BSA and Patriot Act regulatory requirements during


TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for         Page 5
Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
the time period of our audit and changes in examination guidance
included in the Federal Financial Institutions Examination Council
manual that was issued in June 2005 and updated in 2006 and
2007. He said that not every statement in the manual can be
construed as a regulatory requirement. He illustrated this point by
referring to CDD requirements and dual controls and separation of
duties, which he said are not regulatory requirements.

On the topic of CDD, the Deputy Director said that CDD as
required by Section 312 of the Patriot Act refers specifically to
correspondent accounts for foreign financial institutions and private
banking accounts for non-U.S. persons. He stated that (1) Section
312 account activity is not common to savings associations,
(2) the examples in our report do not relate to CDD required by
Section 312, and (3) customer due diligence expectations would
follow risk based principles as other areas of the BSA.

Regarding dual controls and separation of duties, the Deputy
Director noted that with the exception of the requirement that a
savings association conduct an independent test of its BSA/AML
compliance program, there is no regulatory requirement, only a
recommended best practice.

We agree that the Deputy Director is correct in his assessment of
CDD and dual controls and separation of duties. As appropriate, we
clarified some of the wording in our report related to this
discussion. We also realize the examination manual is not to be
construed as a regulatory requirement. However, the manual
represents the collective effort of all of the federal banking
agencies, the Financial Crimes Enforcement Network and the Office
of Foreign Assets Control of what constitutes an adequate and
appropriate examination and what should be documented. We used
the manual’s more expansive views of what constitutes appropriate
CDD and internal controls in evaluating the adequacy of OTS’s
examination coverage.

In this regard, the manual provides guidance as a best practice for
an overall due diligence program to assess the appropriateness and
comprehensiveness of the bank’s CDD policies, procedures and
processes for obtaining customer information and assessing the
value of this information in detecting, monitoring, and reporting


TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for         Page 6
Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
                      suspicious activity while still defining regulatory requirements of
                      Section 312 of the Patriot Act. While we cannot comment as to
                      the degree correspondent accounts for foreign financial institutions
                      and private banking accounts for non-U.S. persons are common or
                      not common to savings associations, it should be noted that there
                      were thrifts in our sample that had customers who potentially
                      posed a risk to the institutions where CDD is an appropriate
                      control. These customers included money services businesses and
                      foreign individuals and businesses. For the sampled thrifts, we
                      found that examiner BSA coverage was not always sufficient to
                      ensure that the thrifts had appropriate CDD processes to address
                      these risks.

                      The manual also addresses internal controls and states that a
                      financial institution should provide for dual controls and segregation
                      of duties, and employees who complete the reporting forms (e.g.,
                      suspicious activity reports, currency transaction reports and
                      currency transaction report exemptions) should not also be
                      responsible for filing the reports or granting the exemptions.
                      We noted thrifts in each of the OTS regions in which a compliance
                      officer or BSA officer also performed day-to-day BSA functions, or
                      the compliance officer was the same person as the BSA officer,
                      but the examiners did not raise a concern or indicate the
                      compensating controls to mitigate the lack of segregation of duties.

                      The Deputy Director concluded his response by stating among
                      other things that OTS is committed to ensuring that savings
                      associations are in compliance with BSA/AML requirements and
                      that OTS has devoted significant resources in this area.

Background
                      OTS examines thrifts for safety and soundness and to ensure
                      compliance with various laws, including BSA and the Patriot Act. 10

10
  OTS was created when the Financial Institutions Reform, Recovery, and Enforcement Act of 1989
abolished the Federal Home Loan Bank Board and transferred all examination and supervisory activities
to OTS under the Department of the Treasury. OTS’s primary statutory authority is the Home Owners’
Loan Act, enacted in 1933 to help stabilize the real estate market which had depreciated significantly
during the Depression. Thrifts were originally established to promote personal savings through deposit
accounts and homeownership through mortgage lending. Although lending for home mortgages remains
a significant activity, thrifts now offer many other services.

                      TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for         Page 7
                      Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
                       On April 11, 2002, the OTS Director announced an initiative to
                       improve the examination process by combining safety and
                       soundness and compliance into one examination. Instead of using
                       two separate examination teams, OTS now conducts a single,
                       comprehensive examination with one team, producing one ROE.
                       The BSA examination is part of the compliance examination, which
                       also reviews consumer protection and other required program
                       components. An overall compliance rating from 1 (best) to 5
                       (worst) is assigned to the thrift following the examination.

                       Thrifts are required to establish and maintain a program to monitor
                       compliance with BSA and title III of the Patriot Act.11 Each thrift is
                       to develop and provide for the continued administration of a
                       written program approved by the thrift’s board of directors and
                       reasonably designed to assure and monitor compliance with BSA
                       regulations. At a minimum, the program must (1) provide for a
                       system of internal controls to ensure ongoing compliance,
                       (2) provide for independent testing by in-house personnel or an
                       outside party, (3) designate the individual(s) responsible for
                       coordinating and monitoring day-to-day compliance, and (4) provide
                       training for appropriate personnel.

                       Under BSA, thrifts are required to file a Currency Transaction
                       Report (CTR) for each cash transaction exceeding $10,000 (unless
                       a specific exemption applies) and a Suspicious Activity Report
                       (SAR) when they detect a known or suspected transaction related
                       to a money laundering activity or other violation.12

                       In August 2004, OTS incorporated the review of thrifts’
                       compliance with the requirements of title III of the Patriot Act into
                       its BSA examination procedures. These requirements include
                       implementation of a CIP to verify customer identity; implementation
                       of a CDD program,13 and sharing of information with law
                       enforcement agencies and other financial institutions.

11
  12 C.F.R. 563.177.
12
  12 CFR 563.180.
13
   FinCEN stated through 67 Federal Register 48348 dated July 23, 2002 that Section 312 took effect
July 23, 2002, whether or not Treasury had issued a final rule implementing the provision. Accordingly
FinCEN issued an interim final rule promulgated at 31 CFR 103.181 effective July 23, 2002, that banks
must comply with 31 USC 5318(i) pending Treasury’s issuance of a final rule. For banks, this interim
final rule stated that anti-money laundering programs are to include special due diligence programs for

                       TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for         Page 8
                       Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
                       OTS’s regions—the Northeast, Midwest, Southeast, and West—are
                       required to conduct a full-scope, onsite examination of each thrift
                       they oversee every 12 or 18 months, depending on the thrift’s
                       asset size and compliance rating. 14 Institutions with both assets
                       over $500,000 and higher risk compliance ratings are generally
                       examined every 12 months, while institutions with less assets and
                       risk are scheduled at least every 18 months for an examination.

                       OTS’s Northeast and Midwest regions have written agreements
                       with several states to take turns conducting the examinations
                       scheduled each examination cycle. In states in which examinations
                       alternate between OTS and the state, OTS has to ensure that the
                       continuity of BSA examinations is not disrupted, which could affect
                       whether issues are appropriately followed up on for corrective
                       action. According to OTS, examiners generally rely on the states’
                       ROEs for the results of the state compliance examinations. The
                       written agreements between OTS’s Northeast and Midwest regions
                       allow OTS to obtain the states’ workpapers for review. By
                       reviewing state ROEs and accompanying workpapers, OTS
                       examiners can determine the completeness of the BSA examination
                       conducted by the state, review any areas documented, and
                       establish the scope of any necessary follow-up examinations
                       conducted by OTS.

                       In June 2005, the Federal Financial Institutions Examination
                       Council (FFIEC), of which OTS is a member agency, issued the
                       Bank Secrecy Act/Anti-Money Laundering Manual (BSA/AML



financial institutions that included thrift institutions. The 31 USC 5318(i) requires U.S. financial
institutions to establish due diligence policies, procedures, and controls reasonably designed to detect
and report money laundering through correspondent accounts and private banking accounts that U.S.
financial institutions establish or maintain for non-U.S. persons. A correspondent account is an account
established to receive deposits from, make payment on behalf of a foreign financial institution or handle
other financial transactions related to such institution. A private banking account is an account or
combination of accounts that (1) requires a minimum aggregate deposit of funds or other assets of not
less than $1 million, (2) is established on behalf of one or more individuals who have a direct or
beneficial ownership interest in the account, and (3) is assigned to, or is administered or managed by an
officer, employee or agent of a financial institution and the direct or beneficial owner of the account.
14
   When we initiated our review, OTS had four regions. A fifth OTS region was established in April
2007 and officially opened in July 2007. Designated the Central region, it is responsible for oversight of
thrifts and their holding companies in Ohio, Illinois, Indiana, Wisconsin, and Michigan.

                       TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for         Page 9
                       Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
                       manual).15 The FFIEC BSA/AML manual provides comprehensive
                       guidance for federal bank regulators to follow when conducting
                       BSA examinations. BSA guidance in the FFIEC BSA/AML manual
                       was prepared collaboratively by the federal banking agencies and
                       the Financial Crimes Enforcement Network (FinCEN). The manual
                       provides explanatory material related to BSA, anti-money
                       laundering, and terrorist financing, and a detailed set of
                       examination steps to ensure that complete and consistent BSA
                       examinations are conducted. FFIEC issued updates of the manual in
                       2006 and 2007.

                       The FFIEC manual’s minimum examination procedures for
                       BSA/AML are scoping and planning for the examination, a
                       BSA/AML risk assessment, a BSA/AML compliance program
                       review, and the development of conclusions to finalize the
                       examination. The FFIEC BSA/AML manual contains additional core
                       examination procedures which OTS officials told us are not
                       required for every examination but are selected by the examiner
                       based on the scope of the examination. OTS officials stated that
                       the minimum procedures provide examiners with sufficient
                       flexibility to tailor the procedures based on risk. In addition,
                       examiners are provided expanded examination procedures for areas
                       such as electronic banking and money services businesses (MSB)
                       that are used based on the risks identified at the thrift.

                       The core procedures include the following sections as described:

                       •   Customer Identification Program (CIP) - assess the institution’s
                           compliance with the statutory and regulatory requirements for
                           CIP.

                       •   Customer Due Diligence (CDD) - assess the appropriateness and
                           comprehensiveness of the institution’s CDD policies,
                           procedures, and processes for obtaining customer information
                           and assess the value of this information in detecting,
                           monitoring, and reporting suspicious activity.



15
  FFIEC, established under title X of the Financial Institutions Regulatory and Interest Rate Control Act
of 1978, is a formal interagency body empowered to prescribe uniform principles, standards, and report
forms for the examination of financial institutions by the federal bank regulators.

                       TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 10
                       Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
                        •   Suspicious Activity Reporting - assess the institution’s policies,
                            procedures, and processes and overall compliance with the
                            statutory and regulatory requirements for monitoring, detecting,
                            and reporting suspicious activity.

                        •   Currency Transaction Reporting - assess the institution’s
                            compliance with statutory and regulatory requirements for
                            reporting large currency transactions.

                        •   Currency Transaction Reporting Exemptions - assess the
                            institution’s compliance with statutory and regulatory
                            requirements for exemptions from the currency transaction
                            reporting requirements.

                        •   Information sharing - assess the institution’s compliance with
                            statutory and regulatory requirements for section 314
                            information requests.

                        •   Purchase and Sale of Monetary Instruments - assess the
                            institution’s compliance with statutory and regulatory
                            requirements for the recording of information required for the
                            purchase and sale of monetary instruments for currency in the
                            amounts between $3,000 and $10,000, inclusive.

                        •   Funds Transfers - assess the institution’s compliance with
                            statutory and regulatory requirements for funds transfers.

                        OTS can take enforcement action when warranted to ensure
                        compliance with laws and regulations.16 OTS uses informal (non-
                        public) and formal enforcement action. Informal enforcement action
                        is generally used if the thrift’s overall condition is sound; however,
                        it is necessary to obtain the thrift’s board of directors or
                        management’s written commitment to correct problems and
                        weaknesses. Formal enforcement action, such as a cease and
                        desist order, is used when a thrift has significant compliance
                        problems, especially when there is a threat of harm to the
                        association, depositors, or the public. OTS publishes formal
                        enforcement actions on its website.



16
     OTS’s Regulatory Handbook, Section 371, (June 2003).

                        TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 11
                        Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
Findings

Finding 1   OTS Examiners Often Performed Limited Examinations to
            Evaluate BSA and Patriot Act Compliance

            For the thrifts in our sample, we found that examiners often
            performed limited BSA examinations and did not always evaluate,
            through transaction testing or other means, whether significant
            BSA and Patriot Act compliance program elements had been
            implemented. We also could not determine whether examiners
            reviewed certain high risk issues, such as transactions involving
            MSBs and electronic banking, because examiner workpapers did
            not sufficiently document evidence of work performed or
            examiner’s judgment as to whether a review of these BSA
            compliance areas was warranted.

            BSA Examination Procedures Require an Adequate Assessment of
            BSA Compliance

            In July 2005, OTS began using the FFIEC BSA/AML manual for its
            BSA examinations. It provides for a standard format to guide
            examiners through examinations and to document results. Before
            release of the FFIEC BSA/AML manual, OTS’s BSA examination
            guidance was contained in the OTS Examination Handbook,
            Section 1400, Compliance Oversight Examination Program. The
            OTS guidance did not mandate a standard examination format.

            Both the old guidance and the current FFIEC guidance, however,
            require that examiners adequately assess a thrift’s BSA compliance
            program. An adequate assessment of a thrift’s BSA compliance
            program requires examiners to determine whether the thrift’s
            internal BSA compliance program has been appropriately designed
            and implemented. The guidance states that the thrift’s program
            should be written, include appropriate internal controls, assign
            responsibility to a BSA officer, provide for independent audit of the
            program and include employee training on BSA policies,
            procedures, processes, and regulatory requirements.

            OTS stressed in its internal guidance that examiners perform a risk-
            based examination that emphasizes the thrift’s demonstrated ability


            TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 12
            Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
                       to manage its compliance responsibilities. Using the risk-based
                       focus, OTS examiners refine the scope of their compliance
                       examinations by considering factors such as a thrift’s risk profile.17
                       OTS examiners are instructed to minimize time spent on areas in
                       which the compliance systems appear strong and the likelihood of
                       problems of noncompliance is extremely small or nonexistent. They
                       are instructed to document in their workpapers the judgments they
                       make and their basis for selecting the operations, products, or
                       regulatory areas subject to review.

                       The 2005 FFIEC BSA/AML manual put more emphasis on risk
                       assessment and provides general guidance to examiners for
                       conducting these assessments. Although no particular format is
                       specified, the risk assessment should cover the areas of the thrift’s
                       business that are most vulnerable to noncompliance with BSA and
                       Patriot Act requirements. The guidance further states that if the
                       thrift does not perform the risk assessment, then the examiner
                       should.

                       To provide guidance on the FFIEC BSA/AML manual examination
                       procedures, OTS senior management issued a July 2005
                       memorandum18 to the examiner staff. In the description of the
                       procedures included in the manual, the memorandum provided
                       guidance for transaction testing in the BSA examinations. It stated
                       that transaction testing is required at each examination. This
                       testing can be conducted by utilizing the results of the thrift’s
                       independent testing procedures or by completing any of the
                       transaction testing procedures provided in the examination manual.
                       The memorandum stated that the examiner staff may limit the
                       scope of the transaction testing if the (1) independent test review
                       was comprehensive and no significant findings were made;
                       (2) examiner has no concern with the thrift’s BSA compliance
                       program; and (3) thrift has a history of strong compliance.19


17
   Among the factors OTS guidance cites for identifying a thrift’s risk profile are changes to or
expansions of business operations and strategies; substantive changes to compliance policies,
procedures, systems, or controls; extent of regulatory violations or deficiencies and corrective actions in
reports to management and the board; and areas where the thrift and similarly situated thrifts
experienced problems.
18
   New Directions 05-05, FFIEC BSA/AML Examination Manual, (July 2005).
19
   An examiner from the West region stated that this region did not start using the formatted FFIEC
procedures until 2006. In 2005, the region created its own checklist to be used for its BSA

                       TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 13
                       Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
                      The subsequent versions of the FFIEC BSA/AML manual issued in
                      2006 and 2007 provided more emphasis on the importance of
                      transaction testing in the BSA examinations. The updated manuals
                      stated that transaction testing is an important factor in forming
                      conclusions about the integrity of the bank’s overall controls and
                      risk management processes and should be performed during each
                      examination. The extent of transaction testing conducted should be
                      based on such factors as examiner’s judgment of risks, controls,
                      and the adequacy of independent testing.

                      OTS Examiners Frequently Limited Work Performed to Evaluate
                      Implementation of BSA Compliance

                      For 82 of 95 thrifts we reviewed, or 86 percent, we found that
                      examiners in the most recent examinations performed limited
                      reviews of thrift BSA compliance programs. Table 1 provides the
                      number of thrifts by region with limited BSA examinations and the
                      percentage of the thrifts in our sample.

                         Table 1: Number and Percent of Thrifts by Region
                                  With Limited BSA Examinations

                                                     Northeast   Southeast   Midwest      West     Total
                          Number of thrifts in our
                                                           37          20         20       18         95
                          sample
                          Number of thrifts with
                          limited BSA                      33          17         17       15         82
                          examinations
                          Percent of thrifts with
                          limited BSA                      89          85         85       83         86
                          examinations


                         Source: OIG review of OTS BSA examination workpapers and ROEs.


                      We found examiners limiting their reviews to determining if the
                      thrifts had BSA policies and procedures for information sharing and
                      CIP requirements, accepting thrift assurances that they knew their



examinations that incorporated the steps outlined in the FFIEC BSA/AML manual. We found that the
region’s checklist did address all areas of review presented in the FFIEC BSA/AML manual.


                      TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 14
                      Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
                       customers, confusing CDD20 with CIP, and not following through to
                       identify mitigating factors when thrifts did not maintain dual
                       controls.21

                       Table 2 summarizes our findings, by region, of reasons for the
                       limited examinations. For the majority of the thrifts, examiners
                       assessed compliance only by verifying the existence of policies and
                       procedures for information sharing and CIP requirements. In these
                       cases, we did not find evidence of how the examiners were
                       satisfied that the thrift was properly implementing these policies
                       and procedures. At some of the thrifts we found that policies and
                       procedures for information sharing and CIP were addressed in
                       independent audit work; however, in several cases we did not see
                       evidence of this.




20
   In the examinations we discuss in this section, when we did not see evidence that the examiners
reviewed for compliance with 31 CFR 103.181 which refers specifically to correspondent and private
banking accounts, we asked examiners what work was performed for CDD. The examiners provided
responses that addressed customer due diligence in general terms. The 2005 FFIEC BSA/AML manual
provided guidance for an overall due diligence program to assess the appropriateness and
comprehensiveness of the bank’s customer due diligence policies, procedures and processes for
obtaining customer information and assessing the value of this information in detecting, monitoring, and
reporting suspicious activity while still defining regulatory requirements of Section 312 of the Patriot
Act.
21
   Dual controls exist when the individual performing a procedure is different from the individual
monitoring the performance. For example, the individual who files SARs at a thrift is different from the
individual monitoring the filing.

                       TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 15
                       Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
Table 2: Reasons for Limited BSA Examination Procedures
         by Region in the Most Recent Examination

 Reason                    Northeast      Midwest    Southeast        West       Total
 Number of thrifts with
 limited BSA                       33           17           17         15         82
 examinations
 Limited information
 sharing review to
                                   20           15           15         11         61
 policies and
 procedures
 Limited CIP review to
 policies and                      24           13             8        10         55
 procedures
 Examination
 procedures not
 performed because
                                    4            1             5          1        11
 the thrift assured
 examiners that it
 knew its customers
 Uncertain about CDD
                                    3            1             1          2          7
 requirements
 Acceptance that dual
 controls and
                                    4            2             2          0          8
 separation of duties
 are not maintained

Source: OIG review of OTS BSA examination workpapers and ROEs.

Note: These columns, if added, would total more than the number of thrifts in our
      sample. That is because many of the thrift BSA examinations were limited by more
      than one reason.


When we found limitations in the most recent examination of a
thrift, we also reviewed the prior examination to determine whether
the scope of the previous examination was similarly limited. For
information sharing and CIP, we found that over one third of the
thrifts had been reviewed only for the existence of policies and
procedures for two consecutive examinations. More specifically, in
reviewing the examinations conducted just prior to the current
examinations, which altogether covers a period of about 2 to 3
years, we found that for 38 thrifts, examiners reviewed only the
existence of information sharing and CIP policies and procedures,
respectively. By reviewing only the existence of policies and
procedures, the examiners concluded that these aspects of the
thrift compliance programs were up to standard. We also found
several thrifts for which examiners did not perform a review of

TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 16
Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
                     CDD because the thrift assured them that it knew its customers or
                     examiners did not fully understand CDD and confused it with CIP.
                     In addition, we found thrifts for which examiners failed to identify
                     mitigating factors associated with insufficient separation of duties.

                     The following sections discuss the elements of the above table in
                     more detail.

                     Testing of Compliance With Information Sharing Requirements Was
                     Often Limited

                     According to the BSA regulations,22 the thrift shall expeditiously
                     search its records to determine if it maintains or has maintained
                     any account for, or engaged in transactions with the individual,
                     entity, or organization named in FinCEN’s request. If the thrift does
                     have this information, it is to be reported to FinCEN in the manner
                     and time frame specified in FinCEN’s request.

                     Although not a regulatory requirement, the core procedures for
                     information sharing in the FFIEC BSA/AML manual includes a step
                     to review the adequacy of the thrift’s documentation to provide
                     evidence of compliance with section 314(a) requests. This is in
                     addition to the primary objective for determining the existence of
                     policies, procedures and processes for 314(a) requests. This
                     documentation includes copies of the 314(a) requests, a log with
                     tracking numbers and sign off columns to show the records were
                     checked, the date of the search, and search results. In addition, the
                     manual states that copies of information returned to FinCEN along
                     with supporting documentation should be retained by the thrift.

                     We reviewed examiner workpapers concerning thrift compliance
                     with information sharing provisions of the Patriot Act and
                     discussed testing performed with examiners. We found that their
                     tests were frequently limited. For 61 of 95 thrifts in our sample we
                     found that examiners reviewed only the written policies and
                     procedures for the thrift’s section 314(a) information sharing
                     programs in their current examinations. Reviewing written policies
                     and procedures, however, does not ensure that the thrift is
                     contacting FinCEN in a timely manner in response to a search of its


22
     31CFR103.100.

                     TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 17
                     Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
                        records for suspect names, account numbers, and other identifying
                        information as required by regulation. For 4 of 95 thrifts in our
                        sample we saw no evidence of examiner review of this compliance
                        area. For the other 30 thrifts in our sample, we found adequate
                        reviews of this compliance area were made. Examiners either
                        reviewed thrift records and processing of requests or reviewed
                        independent audit work to determine if FinCEN was properly
                        contacted and records of FinCEN’s requests and the thrift’s
                        responses to these requests were maintained.

                        OTS’s headquarters officials stated that even though there are no
                        recordkeeping requirements in the regulation, the examiner may
                        perform a review to determine if the thrift’s is maintaining a log of
                        information sharing requests. Also, OTS’s headquarters officials
                        stated that FinCEN will contact OTS if a request goes unanswered.
                        OTS seemed satisfied with this type of control to compensate for
                        the limited review performed by the examiners.

                        Examiner Review of Compliance With CIP Requirements Was Often
                        Limited

                        We reviewed examiner workpapers concerning thrift compliance
                        with CIP provisions of the Patriot Act and discussed testing
                        performed with examiners. We found that examiner tests were
                        frequently limited. We question whether examiners performing
                        these limited examinations could ensure thrift compliance with CIP
                        provisions.

                        We found in the most recent examinations of 55 thrifts, examiners
                        were reviewing only whether the thrift had written CIP policies and
                        procedures and not, as required by the BSA regulations,23 to
                        determine whether the thrift maintained records of the information
                        used to verify customer identities.24 For these thrifts, we did not
                        see evidence that the examiner had evaluated thrift compliance
                        with this provision by doing transaction testing or had evaluated
                        independent audit work associated with CIP. We did find, however,
                        that CIP transaction testing was performed for 28 thrifts. Also,


23
     31 CFR 103.121.
24
     FFIEC Bank Secrecy Act/Anti-Money Laundering (BSA/AML) Examination Manual, (June 2005).


                        TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 18
                        Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
                       examiners reviewed independent audit work for CIP for another 12
                       thrifts.

                       OTS’s headquarters officials stated that the examiner evaluates the
                       risk based on the thrift’s business activity and makes a judgment of
                       whether to test the thrift’s CIP records. The question remains,
                       however, as to how an examiner can ensure compliance with the
                       provisions of the CIP regulation if the examiner does not perform a
                       review of the thrift’s records.

                       Examiners Relied on Thrift Assurances About Customers and Did
                       Not Review Customer Activity That Posed a Potential Risk

                       We found in the most recent examinations in our sample of 95
                       thrifts that examiners did not perform certain tests to review thrift
                       monitoring of customer accounts for suspicious activity. As shown
                       in table 2, for 11 thrifts the tests were not performed because the
                       thrifts claimed that they knew their customers. For 7 other thrifts,
                       the examiners were uncertain about CDD requirements.

                       When we asked OTS’s headquarters officials about an examiner
                       not performing CDD tests because a thrift has assured an examiner
                       that it knows its customers, the officials said that in that case a
                       review of CDD is not always necessary. OTS’s headquarters
                       officials stated that Section 312 of the Patriot Act and its
                       accompanying regulations25 refer to CDD requirements for
                       correspondent accounts for foreign financial institutions and private
                       banking accounts for non-U.S. persons. OTS officials also said that
                       correspondent for foreign financial institutions and private banking
                       accounts for non-U.S. persons were not common account activities
                       to thrift charters.

                       OTS officials are correct in their interpretation of Patriot Act
                       requirements. However, though not a regulatory requirement, the
                       FFIEC manual, which reflects the best judgment of the five federal
                       banking agencies and FinCEN, states that the cornerstone of a
                       strong BSA/AML compliance program is the adoption and
                       implementation of comprehensive CDD policies, procedures, and
                       processes for all customers, particularly those that present a high


25
     31 CFR 103.176, 31 CFR 103.177, 31 CFR 103.178, and 31 CFR 103.181.

                       TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 19
                       Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
risk for money laundering and terrorist financing. The manual goes
on to state that the objective of CDD should be to enable the bank
to predict with relative certainty the types of transactions in which
a customer is likely to engage. Moreover, these types of processes
assist the financial institution in determining when transactions are
potentially suspicious. We used this more expansive requirement in
assessing the CDD examinations conducted by OTS examiners.
Further, we found thrifts in our sample with potentially risky
customers, including MSBs and foreign individuals and businesses.

When we asked OTS’s headquarters officials about possible
confusion among examiners about CDD and its requirements, as
happened in the examinations of 7 thrifts in our sample, they said
they are aware that certain examiners do not fully understand CDD
requirements and how it is distinguished from CIP, and intend to
correct the problem. Several of the examiners told us they had not
performed a CDD review in these cases because of uncertainty as
to the requirements. Other examiners referred to such procedures
as CIP, which is the process by which a thrift verifies customers’
identities when they open accounts. In addition, OTS’s
headquarters officials stated that if the thrift has assured the
examiner through independent testing and internal control results
that CDD is commensurate with a known customer risk profile,
transaction testing may not be warranted.

Examples in which the examiners, despite potential risk, did not
review the thrift’s CDD follow below.




TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 20
Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
•   The examiner of one thrift said CDD was covered when he
    reviewed the thrift’s CIP program. Despite the risk of many
    foreign individual and business depositors, the examiner
    reviewed only the account opening records of these depositors
    to ensure that the thrift obtained all of the required information.
    This examiner also documented in the ROE that he reviewed the
    procedures followed by the thrift to determine if these
    customers were on any list of known or suspected terrorists or
    terrorist organizations. However, the examiner said he did not
    take this review a step further, contrary to FFIEC BSA/AML
    manual guidance, to determine if the thrift was conducting
    ongoing monitoring of potentially high risk transactions.

•   An examiner found that another thrift was not conducting due
    diligence for its MSB customers’ accounts for unusual or
    suspicious activity. When we asked why this was not cited in
    the ROE, the examiner said that at the time of this 2005
    examination, OTS was allowing thrifts time to develop their
    CDD programs. Although the CDD regulations had been in
    effect since 2002, the examiner said that it was not until June
    2005, when the FFIEC BSA/AML manual was issued, that
    guidance existed regarding what the CDD program required. The
    examiner added that prior to this guidance, OTS examiners
    focused on a thrift’s ongoing monitoring of high risk accounts
    for CTR reporting purposes and not suspicious activity.

By way of contrast, however, other OTS examiners we interviewed
well understood CDD requirements, and appropriately identified
program weaknesses during their examinations, as shown below.

•   One examiner documented in an examination that the thrift was
    performing appropriate CDD. The examiner reported that when
    concerns or patterns of unusual transactions are noted, the
    thrift’s compliance officer is contacted to obtain additional
    information from the customer regarding this activity. The thrift
    conducts transaction analysis over time to monitor for unusual
    activity. The thrift also closed a customer account as soon as it
    was unable to verify data that was provided by the customer
    for a questionable transaction.




TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 21
Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
                       •   In another examination, the examiner found that an institution
                           was not monitoring its high-risk accounts and that proper CDD
                           was not performed. The examiner noted that management had
                           just begun to review all of the past deposit history of the
                           borrowers to identify unusual transactions. The examiner
                           documented that the thrift’s high-risk accounts, which were
                           MSBs as noted in the thrift’s risk assessment, had not been
                           interviewed or visited to determine the extent of their business
                           and the products and services they offered.

                       •   A similar concern was found by an examiner when he found
                           that the thrift was not reviewing customer account activity. The
                           examiner found that the thrift needed to establish customer
                           profile forms on all customers exhibiting higher anti-money
                           laundering or terrorist risk characteristics, based on the thrift’s
                           risk analysis, and review the transactions of these customers
                           for unusual activity.

                       Dual Controls and Separation of Duties Were Not an Examiner
                       Concern at Some Thrifts

                       OTS’s guidance26 and the 2005 FFIEC BSA/AML provide guidance
                       to examiners about what constitutes good internal control in a
                       thrift’s BSA compliance program. The manual states that a thrift’s
                       BSA compliance program should provide policies, procedures, and
                       processes for dual controls and segregation of duties. The manual
                       also states that employees who complete reporting forms, such as
                       SARs and CTRs, should not be responsible for filing the reports
                       with Treasury.

                       The purpose of these controls is to allow the thrift to objectively
                       monitor compliance with its BSA program independently from
                       performing the procedures. This is a means of deterring
                       circumvention of controls and allows the thrift to appropriately
                       evaluate the effectiveness of its program.

                       We found examinations conducted for 8 of the 95 sampled thrifts
                       in which the examiners did not discuss steps that the thrift had
                       taken or could take to mitigate risk caused by the lack of


26
     OTS’s Compliance Self Assessment Guide, (December 2002).

                       TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 22
                       Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
separation of duties. In these cases, the examiners noted instances
where the thrifts had not established fully independent positions or
functions, yet the examiners did not address compensating
controls, such as an adequate independent audit function, that
could allow these situations to be deemed acceptable. For example,
in a Southeast thrift, the senior vice president served as both the
thrift’s internal auditor and compliance officer. The examiner only
reported in the ROE that the combined function of the internal
auditor, who is responsible for independently testing all thrift
departments, and compliance officer, who is responsible for
compliance with all programs (including lending, retail operations,
BSA/AML, and fair lending), was becoming increasingly demanding
as the thrift continued to grow and establish offices in other areas.
This same thrift also had another separation of duties issue
because the thrift’s BSA officer, who is responsible for thrift
BSA/AML compliance, was filing SARs.

When we discussed our concerns with OTS’s headquarters
officials, they stated that the examiners would be concerned only if
the compliance officer was the same person as the BSA officer. If
not, then examiners would not be concerned if, for example, the
compliance officer also audited the BSA function at the thrift.
However, they agreed that a compliance officer performing a BSA-
related function, such as filing CTRs, would not be appropriate. If a
BSA officer performs both a monitoring and filing procedure
function such as for CTRs, however, OTS headquarters officials
stated that this situation does not create a heightened risk of
BSA/AML noncompliance and possible money laundering or
terrorist financing, if it occurs at a small, low-risk community thrift
with limited resources.

Nonetheless, we found cases in each of OTS’s regions in which the
examiners did not always raise a concern when a thrift’s
compliance officer or BSA officer also performed day-to-day BSA
functions or if the compliance officer was the same person as the
BSA officer. For example:

•   A Northeast examiner noted that a thrift vice president
    conducted BSA-related reviews, such as monitoring large cash
    transaction reports for the filing of CTRs and SARs, and also
    submitted CTRs and SARs for processing. While the ROE stated


TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 23
Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
    that adequate policies and procedures were in place to ensure
    that business was being conducted in a sound manner, we
    could not identify any additional testing performed to reach this
    conclusion.

•   A Southeast region examiner found that the BSA officer was
    responsible for filing SARs and that all employees of the thrift
    were to report suspicious activity to the BSA officer. The BSA
    officer also processed the thrift’s wire transfers. No explanation
    was provided in the ROE of how the risk posed by these
    incompatible duties was mitigated.

•   In a Midwest examination, the institution’s vice president
    functioned as both the BSA officer and the compliance officer.
    The examiner reported that this individual performed in-house
    monitoring of the institution’s BSA program and reported the
    results of this work to the thrift’s board for review or action.

•   For a West region thrift, the examiner reported that the thrift’s
    internal auditor was responsible for filing SARs. The examiner,
    however, did not note this as a problem or identify how the
    thrift mitigated the resulting risk.

Examiners Generally Did Not Document Evidence of Review for
Specific BSA Compliance Areas

For all 95 thrifts in our sample, we found that OTS examiners did
not document that one or more BSA compliance areas had been
covered during the most recent examination. In these cases we did
not see documentation of work performed, or of the examiner’s
judgment whether a review of these BSA compliance areas was
warranted.

OTS’s November 2004 written guidance states that an examiner
should document in the workpapers the judgments made during
examinations and the basis for selecting areas to review. This
guidance also states that the effectiveness of OTS’s examination
process is in part reflected in the adequacy of workpaper
documentation. Because the most recent examinations were
conducted in 2005 and 2006, this guidance applied.



TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 24
Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
When establishing the scope of the BSA examination, OTS’s
guidance states that the examiner should consider the risks based
on the thrift’s operations, the quality of management, and the
ability of management and the board to monitor risk and take
action to remedy problems. Based on this assessment, the
examiner determines the appropriate areas to review and the
examination procedures to use. In our review, we looked for
evidence that the examiner made this assessment and, either
documented the results of examination for critical BSA program
areas or provided rationale for not examining these areas.
Specifically, we looked for whether the examiner assessed the risk
at the institution either informally in workpaper documentation or
through a formal risk assessment prepared by the thrift or the
examiner. When we found no evidence in the examination
workpapers that certain assessments were made, we interviewed
the examiners about the circumstances and the rationale examiners
used to justify the lack of documentation for certain procedures.

Having examiners document these assessments has been more
recently emphasized in the FFIEC manual. When first issued in
2005, the FFIEC BSA/AML manual did not address examination
documentation. However, the 2006 and 2007 updates to the
manual state that examination workpapers should be prepared in
sufficient detail to support issues in the ROE. Additionally, for
those findings not discussed in the ROE, the examiner should
ensure that the workpapers thoroughly and adequately document
each review as well as aspects of the institution’s BSA compliance
program that merit attention. The manual now also states that in
formulating conclusions for the BSA examination, all relevant
determinations should be documented and explained.

The areas of BSA compliance most frequently not addressed by the
examiners for the 95 sample thrifts were: (1) electronic banking
activities, specifically Internet banking (67 thrifts); (2) business
relations with MSBs (57 thrifts); and (3) lending activities (47
thrifts).

Table 5 presents the number of thrifts in which specific BSA
examination areas showed no evidence of review during the most
recent examination.



TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 25
Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
Table 3: BSA Compliance Areas for Which Workpapers Lacked Evidence
         of Review in the Most Recent Examination

 Review area                Northeast   Southeast   Midwest      West   Totals
 Number of thrifts in our
                                  37          20         20       18       95
 sample
 Electronic banking               32            6        17       12       67
 Money service
                                  33            5        12        7       57
 businesses
 Lending activities               33            3         7        4       47
 Customer due diligence           12            3        10        4       29
 Currency transaction
                                  15            3          2       1       21
 reporting exemption
 Purchase and sale of
                                   9            2          3       4       18
 monetary instruments
 Risk assessment                   8            2          1       1       12
 Review of prior BSA
                                   6            0          1       0        7
 examination
 Funds transfers                   5            0          1       1        7
 Independent testing               4            0          0       0        4
 Information sharing               2            0          0       2        4
 Written BSA program               2            0          0       0        2
 Suspicious activity
                                   1            0          0       0        1
 reporting
 Internal controls                 1            0          0       0        1
 BSA officer                       1            0          0       0        1
 BSA training                      1            0          0       0        1
 Currency transaction
                                   1            0          0       0        1
 reporting
 Customer identification
                                   0            0          0       0        0
 program

Source: OIG review of OTS BSA examination workpapers and ROEs.


For many of these thrifts, the examination workpapers for the prior
examination also lacked evidence that certain BSA compliance
areas had been reviewed in the prior examination. For example, we
found no evidence that electronic banking had been reviewed for
53 thrifts during two consecutive examinations. This was also the
case for 48 thrifts with respect to their business relationships with
MSBs and 35 thrifts with respect to their lending activities.

In response to our inquiries about why documentation was not
available to show that procedures for assessing BSA compliance
had been performed, the OTS examiners and regional management
officials provided the following explanations:

TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 26
Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
•   Examination documentation was not prepared when examiners
    did not find exceptions. We were told by a number of examiners
    and their manager, particularly in the Northeast region, that
    examiners were expected to “document by exception.”
    Therefore, if an examiner did not find a problem in an area,
    there may not be any documentation of examination of that
    area in the workpapers. When we asked the examiners about
    the examinations for those areas lacking documentation, they
    primarily relied on memory to tell us if procedures were
    performed and whether they did not document the results of
    their work because no problems existed. In these cases, we
    could not assess the accuracy of these explanations because no
    documentation existed to verify them.

•   The thrift did not have certain types of accounts to warrant the
    tests. According to some examiners, if a thrift did not have any
    activity in a particular area or a particular type of account, the
    review of that area was probably not documented in the
    workpapers. Without documentation, however, the examiners
    who provided this explanation were relying on their own
    recollections of thrift business at the time of the BSA
    examinations.

•   A risk assessment was not available. Although a thrift is not
    required to prepare a risk assessment, the 2005 FFIEC manual
    recommends that the thrift prepare a risk assessment, and if the
    institution has not, the examiner must prepare one. With or
    without a documented thrift risk assessment, to scope the BSA
    examination, examiners need to assess the thrift’s level of
    BSA/AML risk. For 12 sampled thrifts, we did not find evidence
    that the examiner had assessed risk at the institution in order to
    scope the BSA examination.

•   Examiners “waived” procedures because the thrift said it knew
    its customers. As discussed earlier, because of a thrift’s smaller
    size, the examiners often accepted without evidence that the
    thrift knew its customers and, as a result, waived review of the
    thrift’s CDD program.




TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 27
Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
•   Examiners lacked an understanding of certain requirements. As
    discussed earlier, some examiners did not know the difference
    between CDD and CIP.

OTS’s headquarters officials stated that examiners are not required
to document areas reviewed unless there are adverse findings, and
questioned the need for detailed documentation of non-applicable
areas. They said documenting why particular examination
procedures did not apply to a thrift would significantly increase
examination time and burden on the industry.

Because of our concern with the lack of evidence with electronic
banking and the fact that Internet banking (a major component of
electronic banking) is becoming a more common way of doing
banking business for many customers and carries with it a certain
amount of risk, we decided to look more closely at examiner
reviews in this area. We noted the following:

•   In the Northeast region, few thrifts in our sample were identified
    as having Internet banking. For those thrifts which did have
    Internet banking, no additional work was done in the BSA
    examination to evaluate online transactions.

•   In the Southeast region, the examination documentation for 13
    thrifts in our sample contained no evidence that the examiner
    reviewed the thrift’s Internet banking services. Of these, 6
    thrifts had examinations conducted using the FFIEC examination
    procedures, which required that a risk profile be prepared and
    the risk associated with electronic banking be identified by the
    thrift. For all of the 6 thrifts, the examiners did not recall the
    work that was performed because the workpapers lacked
    documentation.

•   In the West region, the examiner noted in the examination
    program of one sampled thrift that electronic banking was a
    high risk business line. However, we did not find evidence in
    the examination documentation that work was performed to
    review the thrift’s use of electronic banking for customer
    transactions.




TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 28
Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
                       We asked examiners whether they reviewed electronic banking in
                       those cases in which we did not see supporting documentation. In
                       general the examiners said they thought electronic banking was
                       more of a risk if the thrift allowed customers to open accounts
                       online. If a bank did not allow accounts to be opened online but
                       only allowed customers to do online transactions once a
                       customer’s account was opened, the examiners believed that these
                       transactions would be subject to the thrift’s BSA compliance
                       program controls and did not represent the same risk for the thrift.

                       Although OTS’s information technology group27 examines the
                       authentication processes at thrifts,28 we found that the information
                       technology examiners did not routinely share the results of their
                       examinations with compliance examiners. For example, in a
                       Southeast region examination, we found that the information
                       technology examiner who reviewed these controls at the thrift did
                       not coordinate with the examiners conducting the BSA examination
                       to determine the impact of a problem with the thrift’s electronic
                       banking authentication controls on the thrift’s CIP program. OTS’s
                       examiners who conducted the information technology exam
                       considered the problem to be a concern for fraud or identity theft
                       but not CIP. We received a similar response from OTS’s
                       headquarter officials who stated that although Internet banking is a
                       high risk area and would generally warrant a review, they believed
                       that this was more of an identity theft or fraud concern, and did
                       not believe that there was a link between information technology
                       issues such as authentication controls and CIP.

                       OTS’s headquarters officials stated that information technology
                       reviews do not focus on whether controls are adequate to
                       reasonably protect the bank from money laundering and terrorist

27
   OTS’s information technology examiners review technology risks and controls at thrifts that have
complex operations and activities. Regional managers determine whether to assign an information
technology examiner based on factors such as the volume and type of internal processing conducted
and use of complex applications, systems networks, or equipment. When scoping a thrift’s examination,
the examiner-in-charge is to consult with the regional information technology examination manager
regarding these concerns.
28
   OTS issued a memorandum to chief executive officers of thrifts on the subject of authentication in an
Internet banking environment. In this guidance, OTS states the need for thrifts to do risk-based
assessments, customer awareness, and implement security measures to validate customers accessing
thrifts’ Internet-based services. OTS also states that examinations of thrifts are to include a review of
the authentication methods and controls as they relate to this guidance.

                       TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 29
                       Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
financing but that reviews of authentication methods and controls
for Internet-based services generally focus on the need for risk-
based assessments, customer awareness, and security measures
such as password controls. We believe that even if the information
shared from these examinations is limited, it is still of value to the
examiner who is assessing authentication controls that are relied
upon to satisfy customer identification requirements for new
accounts opened online.

OTS Quality Assurance Reviews Found the Need for Examiners to
Improve Their BSA Examinations

OTS regional officials conduct periodic quality assurance reviews of
their examination programs to assess examiner compliance with
examination guidance, including the BSA compliance program.
These reviews are conducted annually for a sample of
examinations.

We reviewed BSA quality assurance reviews OTS performed in
2005 for each of the regions because these were the most current
set of quality control reviews at the time of our review. We found
that the scope of the quality assurance reviews included a review
of examiner workpaper documentation and the reporting of findings
in the ROEs and ECEF.

We found that 3 of the 4 regions identified aspects of the BSA
examination program needing improvement, as follows:

   •   In the Northeast, a January 2006 quality assurance review
       report identified the need for documentation improvements.
       The report suggested that examiners be provided examples
       of workpapers that thoroughly documented areas reviewed
       and conclusions reached to improve the quality of
       examination documentation by regional examiners. The
       report recommended that any violations corrected during the
       review period or during the examination be reported on the
       violations page of the ROE and in OTS’s examination
       system.

   •   In the Midwest, a December 2005 quality assurance review
       report suggested that the region remind examiners to


TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 30
Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
                   document decisions about the scope of their work and the
                   basis for selecting (and not selecting) certain procedures for
                   review and specific transactions for testing. The report also
                   said examiners should be reminded about the requirement to
                   conduct transaction testing during each examination.

               •   In the Southeast, a January 2006 quality assurance review
                   report recommended that the region improve the processes
                   for issuing and communicating new guidance to its staff in a
                   more efficient, uniform, and timely manner. The report noted
                   that examiners within the region had been inconsistent in
                   their examinations, following different versions of BSA
                   examination program guidance that had been available within
                   the region at the time. The report also noted that some
                   examiners did not adopt the procedures in the FFIEC
                   BSA/AML manual until October 2005 although the manual
                   was issued in June 2005 and was adopted by OTS effective
                   mid-July 2005. Additionally, the quality assurance reviewers
                   found that compliance examiners did not consistently index
                   draft ROEs to the supporting workpapers, and recommended
                   that this be required of all staff.

            We could not determine whether these quality reviews had been
            effective in improving examination quality. The reviews were too
            close to the dates of the examinations in our sample for us to
            observe an effect.

Finding 2   OTS Examiners Did Not Consistently Cite a Violation
            When Written BSA Program Elements Were Missing

            OTS examiners found that elements were missing in the written
            programs for 28 thrifts. The examiners reported the missing
            elements as BSA violations for 17 thrifts in accordance with OTS
            guidance and the BSA regulations. However, for 11 thrifts with
            similar findings, the examiners only made suggestions or
            recommendations to the thrifts to improve their BSA programs. The
            matters were not cited as BSA violations. It is important for an
            OTS examiner to cite these deficiencies as BSA violations so that
            the thrift is made aware that immediate corrective action is
            needed, and to set the stage for possible future enforcement action
            in case the thrift does not address the violation.

            TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 31
            Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
                      Regulations Require Thrifts to Have a Written BSA Compliance
                      Program

                      Thrifts are required to establish and maintain procedures reasonably
                      designed to assure and monitor compliance with BSA.29
                      Specifically, each thrift is to have a written BSA program that is
                      approved by the thrift’s board, and these procedures are used by
                      the thrift’s staff on a day to day basis to implement the program.
                      The BSA compliance program is to include, at a minimum, a
                      system of internal controls to assure ongoing compliance, provide
                      for independent testing for compliance by in-house personnel or an
                      outside party, designate an individual responsible for coordinating
                      and monitoring day-to-day compliance, and provide training for
                      appropriate personnel. The thrift is also required to have a written
                      CIP program.

                      Guidance for Citing Violations for Missing Elements of a Thrift’s
                      Written BSA Program

                      OTS guidance issued in April 200430 states that as a fundamental
                      BSA regulation thrifts are required to have a written program that
                      works effectively. Therefore, according to the guidance, a thrift is
                      in violation of the regulation when it has no written program, when
                      the written program is missing necessary elements, or when the
                      written program is adequate but not being followed. The guidance
                      provides that when a written program exists but lacks elements
                      required by regulation, the examiner is to record a violation for
                      each missing or inadequate element.

                      Violations that are determined to be substantive are to be reported
                      in the ROE. According to OTS instructions, examiners are to
                      consider a thrift’s overall record when determining if a violation is
                      substantive.31 The following specific factors are to be considered:
                      (1) the severity of the violation, (2) the time span of the violation,
                      (3) whether the violation is widespread or isolated, (4) whether the
                      violation is systemic, (5) related findings on prior exams, and

29
   12 C.F.R. 563.177.
30
   OTS, New Directions Bulletin 04-05, Bank Secrecy Act and Anti-Money Laundering Programs (Apr. 5,
2004).
31
   OTS, Report of Examination Instructions (November 2004).

                      TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 32
                      Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
                        (6) the risk profile of the association. To be considered a repeat
                        substantive violation, OTS must have previously brought it to the
                        thrift's attention in the ROE, in a discussion with management, or
                        by other means. Substantive violations are to be reported in the
                        ROE and in ECEF. All “technical” violations32 are to be noted in the
                        workpapers and listed in the ECEF. Examiners are to discuss
                        technical violations with management. Recommendations made to
                        thrifts to enhance their BSA program or policy are generally not
                        included in the ECEF and may or may not be included in the ROE.

                        The FFIEC BSA/AML manual provides information on the
                        requirements for the thrift’s BSA compliance program. The manual
                        states, consistent with BSA statutes and regulations, that the
                        program must be in writing, approved by the thrift’s board of
                        directors, and noted in the minutes of the board of directors
                        meeting at which it was approved. In this regard, the written
                        program cannot consist only of policy statements, and practices
                        specified must coincide with the thrift’s written policies,
                        procedures, and processes. The program must provide for the
                        following minimum requirements: (1) a system of internal controls
                        to ensure ongoing compliance (internal controls are the thrift’s
                        policies, procedures, and processes designed to limit and control
                        risks and to achieve compliance with the BSA), (2) independent
                        testing of BSA compliance, (3) designation of an individual or
                        individuals responsible for managing BSA compliance (i.e., the BSA
                        compliance officer), and (4) training for appropriate personnel. In
                        addition, CIP must be included as part of the BSA compliance
                        program.

                        If examination findings are not properly recorded as violations, they
                        are not entered into the ECEF for future corrective action and
                        review in subsequent BSA examinations. If OTS finds that the thrift
                        fails to take corrective action and the thrift continues to be
                        noncompliant, properly recording the violations provides OTS with
                        a sound basis for appropriate enforcement action.




32
  A technical violation is one that does not rise to the level of substantive. Per OTS guidance, an
example of a technical violation would be the failure of the thrift to completely or correctly fill out a
BSA form in an isolated instance.

                        TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 33
                        Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
   Missing BSA Program Written Elements Were Not Consistently
   Treated as Violations

   When OTS examiners found incomplete written BSA programs,
   these findings were not always treated as violations, as OTS’s
   guidance and BSA regulations require. We found inconsistencies,
   particularly among regions, regarding whether BSA requirements
   that were not addressed in the thrifts’ written BSA programs were
   reported as violations.

   We found that the Northeast consistently cited incomplete written
   BSA programs as violations. In contrast, the Southeast region did
   not. We also found that the Midwest region was inconsistent in its
   reporting of this type of deficiency, sometimes citing a violation
   and sometimes not.

   Table 6 below summarizes the number of thrifts by region which
   were missing at least one element of the written BSA program and
   the number of thrifts cited with a violation.

   Table 4: Thrifts With One or More Missing Elements in Their BSA Program

                                                                     Number of Thrifts
                     Number of Thrifts With    Number of Thrifts        Not Cited for
OTS Region                 This Deficiency     Cited for Violation          Violation
Northeast                                 9                     9                   0
Southeast                                 5                     0                   5
Midwest                                  12                     7                   5
West                                      2                     1                   1
Totals                                   28                    17                  11

   Source: OIG review of OTS BSA examination workpapers and ROEs.


   We observed the following with respect to how missing BSA
   written program elements were treated by the regions:

    •   In the Northeast region, one thrift was cited with a violation
        because the thrift needed to revise its written BSA program to
        include certain CIP program requirements and address
        monetary instrument sales and wire transfers. Another thrift in
        the region was cited with a violation for a written BSA



   TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 34
   Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
     program that also did not include complete CIP procedures,
     and CTR exemption procedures.

 •   The Southeast region, on the other hand, did not cite a
     violation for 5 thrifts although they were missing one or more
     parts of the following required elements in their written BSA
     compliance programs: independent testing, BSA training, CIP,
     314(a) information sharing, filing CTRs, CTR exemptions, and
     filing SARs.

 •   The Midwest region cited a violation for 7 thrifts for missing
     one or more parts of the written BSA program, including
     internal controls, independent testing, BSA training, CIP, and
     others. Three thrifts were cited in violation when only a single
     element was missing for their BSA program. The region,
     however, did not cite violations at 3 other thrifts for similar
     missing BSA written program elements.

Regional officials we interviewed often took the position that the
missing elements in the thrifts’ written BSA programs did not
constitute violations because the examiners had made a judgment
that the deficiency had little impact on the thrifts’ otherwise
appropriate implementation of internal controls, designation of a
BSA officer, independent testing, and BSA training. In addition,
regional officials said that the examiners also considered if the
missing element in the written BSA program was a legal or
regulatory requirement or an item that would enhance existing
internal controls. We found that these determinations were
generally not documented in the examination workpapers. Both of
these explanations, however, disregard the fact that there is a
requirement for the thrift to have a complete written BSA program,
and that the thrift’s practices must coincide with these written
policies, procedures, and processes.

Two Regions Are Using Exception Sheets to Document
Examination Results

While not required by OTS guidance, we found that two regions,
the Midwest and Southeast regions, documented examination
findings on exception sheets, which made it easier to trace
examination findings from the workpapers to the ECEF and ROE.


TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 35
Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
           Each examination finding appeared on a separate sheet, on which
           the examiner noted the area in which the finding was made,
           specifically indicated if the finding represented a violation, and
           described the finding. The documentation indicated the thrift’s
           response and any corrective action to be taken.

           The Northeast and West regions did not use these forms. We had
           to interview examiners and review related workpapers to identify
           examination findings, and whether they were considered of
           sufficient severity to rise to the level of a regulatory violation.
           These factors dictate whether the results are to be reported in the
           ECEF or ROE.


Recommendations
           We recommend the OTS Director do the following:

           1. Reinforce the need for examiners to adhere to existing BSA
              examination related guidance, and assess if it is necessary to
              provide supplemental guidance and training to ensure
              examination consistency and documentation of examinations.

              Management Response

              OTS will reinforce the need for examiners to adhere to existing
              BSA examination guidance and assess whether supplemental
              guidance is needed. OTS also provides on-going BSA training to
              examiners in internal and external conferences, meetings and
              examiner schools. These BSA/Patriot Act discussions are made
              in Compliance I, Compliance II, and Advanced Compliance
              Examiner Schools.

              OIG Comments

              OTS’s plan to reinforce existing BSA examination guidance and
              assess the need for reinforcing guidance satisfies the intent of
              our recommendation.

           2. For thrifts that offer electronic banking services, have
              compliance examiners consult with examiners performing


           TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 36
           Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
   information technology examinations to determine if there are
   additional BSA-related risks.

   Management Response

   OTS will implement a process to ensure compliance examiners
   consult with information technology examiners to determine if
   there are BSA-related risks at particular institutions.

   OIG Comments

   OTS’s plans to implement such a process, once done, satisfies
   the intent of our recommendation.

3. Provide guidance to examiners to ensure that they consistently
   cite thrifts for violations when written BSA programs are
   missing required elements.

   Management Response

   OTS is working with other federal banking agencies to issue
   interagency guidance on BSA violations to ensure consistency
   among the federal banking agencies when citing violations. In
   addition, OTS is enhancing an existing program in which
   managers based in Washington, D.C. and regional offices will
   discuss BSA/AML violations also in an effort to promote
   consistent citing of violations in lieu of this pending guidance.

   OIG Comments

   OTS’s participation with other banking agencies to issue the
   interagency guidance and its effort to promote consistency in
   citing violations is responsive to the recommendation. Once the
   interagency guidance is issued, OTS will need to assess its
   impact on current policies, procedures, and training.




TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 37
Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
                                 ******

We would like to extend our appreciation to OTS for the
cooperation and courtesies extended to our staff during the audit.
If you have any questions, please contact me at (617) 223-8640 or
Sharon Torosian, Audit Manager, at (617) 223-8642. Major
contributors are listed in appendix 3.


/s/
Donald P. Benson
Audit Director




TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 38
Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
                       Appendix 1
                       Objective, Scope, and Methodology




                       The objective of the audit was to determine whether the Office of
                       Thrift Supervision’s (OTS) examination coverage was adequate to
                       ensure compliance with the Bank Secrecy Act (BSA) and USA
                       PATRIOT Act (the Patriot Act). We also reviewed how OTS
                       reported the results of its examinations to ensure that thrifts took
                       appropriate corrective actions for noncompliance with these laws.

                       We interviewed officials at OTS headquarters and in the regional
                       offices to obtain an overview of OTS’s responsibilities, strategies,
                       tracking systems, and resources dedicated to ensure compliance
                       with BSA and the Patriot Act by OTS-regulated thrifts.

                       We reviewed applicable laws and regulations related to BSA and
                       the Patriot Act, and OTS’s examination and enforcement manuals,
                       programs, and guidance. We reviewed the Federal Financial
                       Institutions Examination Council Bank Secrecy Act/Anti-Money
                       Laundering Manual to ensure that all provisions of BSA and the
                       Patriot Act were addressed.

                       We selected a random sample of examinations of OTS-regulated
                       thrifts by OTS region (Northeast, Midwest, Southeast, and West).
                       Our sample resulted in a selection of 40 thrifts in the Northeast
                       region and reviewed the most current examinations for each,33 20
                       examinations in the Midwest region, 20 examinations in the
                       Southeast region, and 20 examinations in the West region. The
                       time period covered by these examinations was calendar years
                       2004 through 2006.

                       The asset sizes of the institutions in our sample are shown in
                       table 5 below.




33
   We conducted audit survey work (which we generally do prior to initiating a full audit) in the
Northeast region and selected 40 thrifts for review and analysis of their examinations from a listing of
thrifts as of December 2005. During our full audit, we selected another 60 examinations, this time from
a list of examinations completed between July 2005 and July 2006. This resulted in a selection of 20
current examinations each from the Midwest, Southeast, and West regions. These examinations were
for 99 thrifts because our random sample of examinations for the West yielded 2 examinations for the
same institution.


                       TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 39
                       Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
Appendix 1
Objective, Scope, and Methodology




Table 5: Asset Size of Thrifts in BSA Examinations Sampled

                                                           $500
                                     $100         $250    million
                                million to   million to   to less    $1 billion
                 Less than      less than    less than      than       to less
                     $100            $250         $500          $1    than $5     $5 billion    Total
OTS Region          million        million      million    billion      billion   and over     Thrifts
Northeast                13            13            6         4             3             1       40
Midwest                   8             6            3         1             2             0       20
Southeast                 5             5            4         6             0             0       20
West                      2             2            8         4             0             3       19
Totals                   28            26           21        15             5             4       99
Source: OIG Analysis of OTS data.

Note: Our sample had a total of 99 thrifts; however, for 3 thrifts in the Northeast, the
state examiners performed the most recent BSA examination, and for1 thrift in the West,
the current examination was limited to assessing the thrift’s compliance with a formal
enforcement action. We did not include these 4 thrifts in our sample and reported the
results of our review for 95 thrifts.


We also requested and reviewed the examination performed
immediately prior to each of the current examinations in our
sample. This effectively doubled the number of examinations we
reviewed to 79 in the Northeast region (one thrift had a relatively
new charter and OTS had not performed an earlier examination),
40 in the Midwest region, 40 in the Southeast region, and 40 in
the West region. We also did not use in our analysis 3
examinations in the Northeast region because they were conducted
by states under agreements with OTS for alternating examinations.

We reviewed all of OTS’s examination workpapers, reports of
examination, and examination system data for the current and
most recent prior BSA examinations to evaluate the completeness,
timeliness, and reporting of the results for these BSA examinations.
We evaluated examination results using criteria in effect at the time
of the examination.

We visited the Northeast region’s satellite office in Braintree, MA,
and regional office in Jersey City, NJ, and the Southeast region’s
Atlanta, GA, office. We addressed our questions and discussed
issues regarding our sample BSA examinations with OTS’s
examiners in the Northeast and Southeast regions during our visits
and with the Midwest and West regions in telephone conference
calls with regional staff and examiners.

TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 40
Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
Appendix 1
Objective, Scope, and Methodology




We performed our audit fieldwork from January 2006 through July
2007. We conducted our audit in accordance with generally
accepted government auditing standards.




TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 41
Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
Appendix 2
Management Response




TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 42
Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
Appendix 2
Management Response




TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 43
Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
Appendix 2
Management Response




TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 44
Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
Appendix 2
Management Response




TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 45
Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
Appendix 2
Management Response




TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 46
Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
Appendix 3
Major Contributors to This Report




Sharon Torosian, Audit Manager
Timothy F. Cargill, Auditor
Nikole A. Solomon, Auditor
Ken D. Harness, Referencer




TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 47
Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
Appendix 4
Report Distribution




Department of the Treasury

Office of Strategic Planning and Performance Management
Office of Accounting and Internal Controls

Office of Thrift Supervision

Director

Financial Crimes Enforcement Network

Director

Office of Management and Budget

OIG Budget Examiner




TERRORIST FINANCING/MONEY LAUNDERING: OTS Examinations of Thrifts for Page 48
Bank Secrecy Act and Patriot Act Compliance Were Often Limited (OIG-08-034)
